           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


        FISCAL YEAR 2003 QUICK
         RESPONSE ACTIVITIES
           SUMMARY REPORT


   December 2003     A-13-04-14055




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   December 17, 2003                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report: Fiscal Year 2003 Quick Response Activities Summary
        Report (A-13-04-14055)


        This Management Advisory Report provides information on the Office of the Inspector
        General’s (OIG) Quick Response (QR) workload. The report describes the sources and
        types of QR activities and categorizes them in line with issues we identified to be among
        the top six challenges facing Social Security Administration (SSA) management. We
        prepared this report for your information and therefore it does not require that you take
        any action.

        Anticipating an increase in requests to provide information and advice to Congress,
        SSA management, and the general public, we established the QR Team within the
        Office of Audit. The QR Team performs short-duration, time-sensitive reviews that
        address requests from the Congress, SSA management, the general public, and others.
        Unlike traditional audits and evaluations, QR projects are not planned or scheduled in
        advance.

        Additionally, the QR workload includes Congressional Response Reports that address
        special inquiries ranging from proposed or recently enacted legislation to SSA
        management issues. Congressional Response Reports differ from other inquiries in
        that they are short-duration evaluations/reviews that may require an intensive
        examination of programs, operations, policy and/or procedures.

        This report summarizes our QR activities from October 2002 through September 2003.
Page 2 – The Commissioner


NATURE AND SOURCES OF QUICK RESPONSE WORKLOAD
In Fiscal Year (FY) 2003, the QR Team responded to 20 requests for information. This
workload primarily consisted of inquiries concerning SSA’s service delivery and
improper payments. We received these inquiries from the Congress; SSA
management; the general public; and others, such as other OIGs or Federal agencies.1

Chart 1 shows the sources of the FY 2003 workload.


                                                 Chart 1:
                            10          Quick Response Activities
                     10

                      9

                      8

                      7

                      6
         Inquiries




                      5                              4
                      4                   3                        3
                      3

                      2

                      1

                      0
                          Congress   SSA Mgmt.    Public       Other
                                                 Sources




AGENCY MANAGEMENT CHALLENGES AND THE QUICK RESPONSE
WORKLOAD

The QR workload does not follow our traditional audit processes. Usually, Office of
Audit activities consist of planned audits and evaluations that directly relate to the
management challenges facing the Agency. In contrast, the QR workload consists of
unplanned, time-sensitive projects. We have categorized most of our QR workload in




1
 The category “Other” includes inquiries from the General Accounting Office, Small Business
Administration and the Department of Justice’s Office of the Inspector General.
Page 3 – The Commissioner

line with two of the top six challenges OIG identified as facing SSA management.2 We
have highlighted several of our QR efforts for the Service Delivery and Improper
Payments management challenges.3

SERVICE DELIVERY

SSA is committed to providing citizen-centered, world-class service. The Agency has
set forth in its Strategic Plan the goal “To deliver high-quality, citizen-centered service.”4
This goal encompasses SSA’s traditional (in-person, telephone) and electronic services
for applicants for benefits, beneficiaries, and the general public, as well as services to
and from States, other agencies, third parties, employers and other organizations.

Delivering quality service to the public remains a critical issue facing SSA. SSA’s ability
to deliver world-class service is impacted by the complexity of the programs SSA
administers and a steady reduction in staffing accompanied by an increase in workloads
because “baby boomers” are reaching retirement age. The representative payee
process and human capital pose challenges that impact service delivery.

We received several inquiries from the Congress and the public that relate to SSA’s
service delivery.

•     We reported5 to the House Appropriations Committee on SSA’s progress in
      developing policies and procedures to give first priority to the location of new offices
      and facilities in rural areas, as directed by the Rural Development Act of 1972.

•     We responded to a claimant’s inquiry regarding an incorrect posting of earnings to
      his Personal Earnings and Benefit Estimate Statement.

•     We responded to a congressional inquiry regarding a constituent’s request that his
      overpayment, which was caused by receipt of a civil service pension, be waived and
      all monies previously withheld be refunded.




2
  The six management challenges are Social Security Number Integrity and Protection; Management of
the Disability Process; Improper Payments; Budget Performance and Integration; Critical Infrastructure
Protection and Systems Security; and Service Delivery.
3
 The majority of the inquiries we responded to addressed concerns related to these management
challenges.
4
    Social Security Administration, Strategic Plan 2003-2008, March 2003.
5
 Congressional Response Report: The Social Security Administration’s Policies and Procedures
Concerning the Rural Development Act of 1972, July 24, 2003 (7 U.S.C. § 2204b-1(b)).
Page 4 – The Commissioner

                        Some individuals cannot manage or direct the management of
    Representative      their finances because of their youth or mental and/or physical
    Payee Challenges    impairments. Congress granted SSA the authority to appoint
                        representative payees to receive and manage benefit
payments for such individuals.6 A representative payee may be an individual or an
organization.

SSA selects representative payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individuals’ interests. There are about 5.3 million
representative payees who manage benefits for about 6.7 million beneficiaries.

As part of our work in this area, we commented on proposed regulations that reflected a
refinement of the definition of categorical eligibility the Agency will follow in determining
who needs a representative payee.

    Human Capital  Strategic Management of Human Capital is a Government-wide
                   initiative and is included in the FY 2002 President’s Management
    Challenges
                   Agenda (PMA). Moreover, the General Accounting Office has
designated Human Capital Management as a high-risk area Government-wide.

SSA’s future promises major technological advances and an exponential growth in
workloads. This growth will occur at the same time SSA may face an unusual wave of
management and staff retirements. Even at current staffing levels, SSA finds it difficult
to maintain an acceptable level of service to the public, especially in its most
complicated workloads. After a decade of downsizing and curtailing investments in
human capital (people), the Government is facing a major challenge in meeting current
and emerging needs of the Nation’s citizens.

SSA acknowledges its employees are its most important asset. SSA also recognizes it
must maintain a highly skilled, high-performing, and highly motivated workforce to
continue to provide high quality service and meet its mission. To this extent, SSA
developed the strategic goal “To strategically manage and align staff to support the
Agency’s mission.”

Below are examples of inquiries we responded to that relate to this issue.

•     We reported to Congress on SSA’s proposed relocation of an Ohio Office of
      Hearings and Appeals.7

•     We reported to Congress on several issues relating to the work assignments of
      administrative law judges at SSA hearing offices in North Carolina.8

6
    The Social Security Act, as amended, §§ 205(j)(1)(A), 42 U.S.C. 405 and 1631(a)(2)(ii), 42 U.S.C.1383.
7
 Congressional Response Report: The Social Security Administration’s Relocation of the Office of
Hearings and Appeals in Columbus, Ohio, November 27, 2002 (Limited Distribution).
Page 5 – The Commissioner



•    We provided assistance to another Federal agency requesting information on SSA’s
     use of rehired annuitants for FY‘s 1996 to the present.


IMPROPER PAYMENTS

Improper payments are defined as payments that should not have been made or were
made for the incorrect amounts. Examples of improper payments include inadvertent
errors, payments for unsupported or inadequately supported claims, payments for
services not rendered and payments to ineligible beneficiaries. The risks of improper
payments increase in programs with a significant amount of transactions, complex
criteria for computing benefit payments, and/or an emphasis on expediting payments.

The President and Congress have expressed interest in measuring the universe of
improper payments within the Government. In August 2001, the Office of Management
and Budget (OMB) published the FY 2002 PMA, which included a Government-wide
initiative for improving financial performance. In November 2002, the Improper
Payments Information Act of 2002 was enacted. The Act requires that the head of each
agency review annually all programs and activities the agency administers and identify
all programs and activities that may be susceptible to significant improper payments.

Our improper payment-related activities included the following.

•    We reported9 to the Congress on SSA’s management controls and contractor and
     employee cardholder responsibilities regarding the issuance, use and termination of
     the Government Travel Card.

•    We alerted SSA to questionable transactions and business practices that were
     related to the use of the Government Purchase Card.10

•    We responded to a claimant’s inquiry over receipt of several payments to him and
     his wife that he believed were sent in error.

•    We responded to a congressional inquiry on behalf of a constituent regarding her
     request that retroactive widow’s benefits be paid her from the date of wage earner’s
     death.



8
 Congressional Response Report: Office of Hearings and Appeals Administrative Law Judges’ Work
Assignments in Greensboro and Raleigh, North Carolina, August 14, 2003 (Limited Distribution).
9
 Congressional Response Report: The Social Security Administration’s Government Travel Card
Program, August 15, 2003.
10
  Management Advisory Report: Transactions Involving the Government Purchase Card, January 23,
2003 (Limited Distribution).
Page 6 – The Commissioner

In conclusion, this non-traditional, ad hoc workload affords us an opportunity to provide
timely, useful data to Congress, SSA management and the general public. In this
regard, we are able to provide the inquirer with an objective, unbiased examination of
the Agency’s programs, operations, policy and/or procedures. This workload is another
facet of my office’s commitment to eliminating fraud, waste, and abuse in SSA’s
operations and programs.




                                         James G. Huse, Jr
Appendix A
                                                                       Appendix A

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Brian Karpe, Lead Auditor, General Management (410) 966-1029

Acknowledgments

In addition to those named above:

    Evan Buckingham, Program Analyst

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-04-14055.
                         DISTRIBUTION SCHEDULE




Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
